<html>
<title> - REGIONAL SECURITY COOPERATION: AN EXAMINATION OF THE CENTRAL AMERICAN REGIONAL SECURITY INITIATIVE (CARSI) AND THE CARIBBEAN BASIN SECURITY INITIATIVE (CBSI)</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                   REGIONAL SECURITY COOPERATION: AN

                  EXAMINATION OF THE CENTRAL AMERICAN

                  REGIONAL SECURITY INITIATIVE (CARSI)

                    AND THE CARIBBEAN BASIN SECURITY

                           INITIATIVE (CBSI)
=======================================================================



                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2013

                               __________

                           Serial No. 113-74

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______






                  U.S. GOVERNMENT PRINTING OFFICE
81-568                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                     MATT SALMON, Arizona, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ENI F.H. FALEOMAVAEGA, American 
JEFF DUNCAN, South Carolina              Samoa
RON DeSANTIS, Florida                THEODORE E. DEUTCH, Florida
TREY RADEL, Florida                  ALAN GRAYSON, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable William R. Brownfield, Assistant Secretary, Bureau 
  of International Narcotics and Law Enforcement Affairs, U.S. 
  Department of State............................................    10
Ms. Liliana Ayalde, Deputy Assistant Secretary, Bureau of Western 
  Hemisphere Affairs, U.S. Department of State...................    19
Mr. Mark Lopes, Deputy Assistant Administrator, Bureau for Latin 
  America and the Caribbean, U.S. Agency for International 
  Development....................................................    30
Mr. Eric L. Olson, associate director, Latin America Program, 
  Woodrow Wilson International Center for Scholars...............    47
Mr. Michael Shifter, president, Inter-American Dialogue..........    56

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Matt Salmon, a Representative in Congress from the 
  State of Arizona, and chairman, Subcommittee on the Western 
  Hemisphere: Prepared statement.................................     4
The Honorable William R. Brownfield: Prepared statement..........    12
Ms. Liliana Ayalde: Prepared statement...........................    21
Mr. Mark Lopes: Prepared statement...............................    32
Mr. Eric L. Olson: Prepared statement............................    50
Mr. Michael Shifter: Prepared statement..........................    58

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71
The Honorable Albio Sires, a Representative in Congress from the 
  State of New Jersey: Prepared statement........................    72
The Honorable Gregory W. Meeks, a Representative in Congress from 
  the State of New York: Prepared statement......................    73
Written responses from the Honorable William R. Brownfield, Ms. 
  Liliana Ayalde, and Mr. Mark Lopes to questions submitted for 
  the record by the Honorable Matt Salmon........................    75


                  REGIONAL SECURITY COOPERATION: AN


                  EXAMINATION OF THE CENTRAL AMERICAN


                  REGIONAL SECURITY INITIATIVE (CARSI)

           AND THE CARIBBEAN BASIN SECURITY INITIATIVE (CBSI)

                              ----------                              


                        WEDNESDAY, JUNE 19, 2013

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:52 p.m., in 
room 2172, Rayburn House Office Building, Hon. Matt Salmon 
(chairman of the subcommittee) presiding.
    Mr. Salmon. I would like to call this committee meeting to 
order. I would like to start by recognizing myself for a brief 
opening statement. I know we have kept everybody waiting for a 
long, long time. So I apologize. Work here at the House from 
time to time is that they call votes on the floor. And that is 
audacious, isn't it, that they would expect that we would have 
to vote? But anyway, I believe some of the other committee 
members were planning on being here and will be here soon.
    I would like to welcome everybody here today to the second 
of our two-part series of hearings on regional security. As you 
may recall, a few weeks ago, we focused on the Merida 
Initiative and the direction in which our security cooperation 
with the world's highest homicide rates, replacing Ciudad 
Juarez last year as the world's most violent city. Poverty, 
crime, public corruption and a legacy of violence in the region 
have created a perfect storm that critically hampers economic 
growth and opportunity, luring youth into a seemingly endless 
cycle of crime and drug trafficking.
    This week we are going to delve into the security situation 
in Central America and the Caribbean Basin and examine programs 
we have undertaken in the region to deal with combating drug 
trafficking organizations to help the nations of both regions 
combat violence and criminality. The security situation in most 
countries of Central America and the Caribbean remains 
critical. Gangs and organized criminals continue to operate 
with impunity. Prisons are substandard, overcrowded. Corruption 
remains endemic. And the justice and law enforcement sector 
simply lack capacity.
    Honduras, El Salvador, and Guatemala, known as the northern 
triangle, suffer from excessive violence. San Pedro Sula in 
Honduras has the world's highest homicide rates. And 
interdiction alone has proven insufficient in dealing with 
serious problems that plague the region. Through CARSI and 
CBSI, the United States has led the effort in assisting the 
region to address the underlying causes of what seems like a 
regional point of no return.
    State's Bureau of International Narcotics and Law 
Enforcement, INL, and USAID have put together a set of programs 
designed to help the region's law enforcement agencies contend 
with the creeping presence of the Zetas and Sinaloa cartels, 
while enabling municipal and Federal police forces to acquire 
the appropriate tools necessary to minimize corruption and 
human rights violations. In addition, U.S. personnel have 
worked diligently with regional partners in an effort to bring 
effective and sustainable justice sector reforms to the region, 
while USAID has worked with local and regional nongovernmental 
organizations to enable communities to partner with the private 
sector, to take the citizen security and prevention bull by the 
horns, so to speak.
    I don't doubt that our efforts are earnest, but I am 
looking forward to hearing from both panelists today whether 
those efforts have yielded measurable success and if the 
political will exists within Central American and Caribbean 
governments to press with real results. The horrifying 
statistics from the region underscore that our efforts are 
needed, but we are only making a dent in the problem at this 
point. We need dedicated and strong willed partners if we are 
to make progress. And progress cannot be made without a series 
of unwavering commitments to transparency, human rights, and 
grit from the governments of the region.
    As chairman of the subcommittee, I maintain that working 
with and assisting our neighbors in Mexico, Central America, 
and Caribbean to build the necessary capacity to deal with 
these challenges is in our national interest. Our region is 
interconnected not only geographically but culturally and 
economically. At the risk of sounding like a broken record, 
economic growth and prosperity in Central and South America 
will lead to more growth in prosperity in the United States.
    Regional security matters. Without security, the countries 
of Central America and the Caribbean will lack the ability to 
grow their economies, give their youth the opportunity and 
incentive to move to the next generation of peace and 
prosperity.
    And as you may know, I did serve in Congress previously 
from 1995 to 2001. And I served on the Foreign Relations 
Committee then. So I have seen my fair share of summits and 
regional meetings where there is plenty of talk, good 
intentions, lofty goals, but often too little in terms of 
execution and follow-through. The people of the United States 
have always been generous and dedicated to helping our friends 
and neighbors through tough times. Even in this time of tight 
budgets Americans are kind enough and practical enough to 
remain engaged and help the region. That said, Americans rarely 
enjoy throwing good money after bad, and we have got to make 
sure that what we do works.
    I see our efforts in Central America and the Caribbean as 
important and they need to continue. I want the people of those 
nations to have a society that is free of corruption where law 
enforcement works for its people to ensure their security, 
where the justice system is transparent and fair, and most 
importantly, where young people no longer have to turn to a 
life of violence gangs and drug trafficking.
    I am extremely happy Ambassador Bill Brownfield is back 
before the committee again to tell us about INL's efforts in 
Central America and the Caribbean. And after our hearing on 
Mexico and the Merida Initiative, my subcommittee staff led a 
delegation to Mexico City and cities in northern Mexico where 
INL is working diligently to help the Mexican Government build 
capacity, train law enforcement, and strengthen and reform the 
justice sector to effectively deal with all of the problems 
associated with transnational criminal and drug trafficking 
organizations. What we learned is that there is still a lot of 
work ahead for us and our partners in Mexico, that this is a 
long-term and vital undertaking.
    Ambassador Brownfield, your staff throughout Mexico is 
professional, dedicated and up to the task. I was happy to 
learn that your office in Mexico has developed a program called 
SAME PAGE that provides an efficient and clear way to track 
projects and expenditures. The taxpayer appreciates and 
deserves that level of accountability. I am pleased that the 
law enforcement trainers and other staff you have placed in the 
field are dedicated and hardworking Americans. Thank you. And 
thank them for their service.
    I am grateful to both Deputy Assistant Secretary Ayalde and 
Mark Lopes from USAID for being here to testify. Working in 
tandem with INL, I am hopeful that your respective agencies can 
build on work already done to more efficiently and effectively 
tackle the worsening situation in the region. I am also looking 
forward to hearing from our private panel: Mr. Eric Olson from 
the Woodrow Wilson Center, who just returned this week from 
Central America and will hopefully give us a clear picture of 
just how dire the security situation is in the region. We also 
have Mr. Michael Shifter who is the president of the Inter-
American Dialogue who has written extensively on this topic.
    Thank you all for being here today for taking the time to 
discuss regional security issues and the growing threat of 
violence and criminality in Central America and the Caribbean. 
I look forward to a productive and informative hearing. And I 
will now recognize the ranking member for his remarks.
    [The prepared statement of Mr. Salmon follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Sires. Thank you, Mr. Chairman. Good afternoon. And 
thank you to our witnesses who have been here today and thank 
you for your patience.
    Today's discussion on the security situation in Central 
America and the Caribbean is both timely and long overdue. 
While merited efforts to combat criminal threats and reduce 
drug trafficking-related violence in Mexico has diverted our 
attention from the public security crisis that has emerged in 
Central America, the deteriorated state of security in the 
region is a byproduct of gangs, organized crime groups, drug 
traffickers that have spilled over from Mexico in attempts to 
control the drug trade, coopting local crime organizations into 
their network who smuggle drugs, people, illicit goods, and 
weapons. And while the Caribbean is not the dominant transit 
point of choice for the illicit drugs into the U.S., it would 
be naive for us to ignore the possibility that a pressure on 
drug traffickers in Mexico and Central America increases. The 
Caribbean will become a viable and attractive alternative for 
illicit activity.
    The most basic functions for any government is to protect 
its citizens. With some of the highest homicide rates in the 
world amongst the northern triangle countries of El Salvador, 
Guatemala, and Honduras, citizen security remains an issue. For 
some countries, false conflict institutional reform in the 
1990s have left already weak governments with a broken justice 
system, corrupt police forces, and poverty stricken unequal 
societies. With the persistent unemployment and the lack of 
social mobility, many Central American youth have either 
emigrated to the United States or been recruited by criminal 
groups. As a result, a bigger Central American population now 
live in the United States. And for some Central American 
countries, remittances represent between 10-20 percent of the 
GDP. It is unfortunate when the choice of a young adult is to 
either leave one's homeland or face a life of poverty alongside 
constant threats to join gangs or other criminal organizations.
    I have been concerned with the rise of Central American 
gangs into the criminal activities and the constant threat they 
pose to susceptible youth and weak governments, particularly El 
Salvador and Honduras. Homicides and drug related violence 
remain serious obstacles to the peace and security of Central 
America. According to the U.N., Mexico, a country with 112 
million people, had in 2011 a homicide rate of 23.7 percent per 
100,000 people. El Salvador with a population of 6 million had 
a rate of 69.2 and Honduras, with a population of almost 8.5 
million had a homicide rate of a staggering 91.6. These facts 
reinforce our need to ensure that the Central American Security 
Initiative and the Caribbean Basin Security Initiative, one, 
broad enough to dismantle a transitional crime organization and 
curb illicit drug flows with crime prevention and institutional 
building efforts to spread to the rule of law and, two, are 
implemented in the coordinated manner within the U.S. agencies 
and partner countries. While remaining dynamic enough to 
address both current and potential threats as seen in the 
Caribbean, it will be in our best interests not to overlook 
security concerns in the Caribbean.
    Today nearly $500 million have been appropriated for CARSI 
and about $200 million have been appropriated for CBSI. 
However, recent Government Accounting Office reports suggest 
that less than 28 percent of CARSI's funds and roughly 90 
percent for CBSI funds have been distributed. This committee 
needs to understand why such funding has not been carried out 
in an efficient manner. I look forward to hearing from our 
panelists regarding the assessment of these security 
initiatives as well as their determination of the current state 
of security in Central America and the Caribbean. Transforming 
a generation of corrupt behavior, strengthening the rule of 
law, implementing long due institutional reform, and creating a 
more inclusive society for youth prone to illicit activities 
will take time and determination. However, the United States 
must approach these initiatives with a goal of transferring 
ownership to Central American leadership. Ultimately, it is the 
people of Central America that are responsible to get the 
public and the political will to take this difficult task on.
    Thank you.
    Mr. Salmon. Thank you. I recognize the gentlewoman from 
Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. And when 
talking about security in this hemisphere, we must not forget 
about Cuba, the State sponsor of terrorism 90 miles from my 
district. In the last 2 months, the Obama administration has 
granted a U.S. visa to Raul Castro's daughter and returned to 
Cuba a convicted spy without having him finish his sentence 
here in the U.S. This week, we find that the State Department 
is engaging the Castro regime in direct mail and migration 
talks. The Castro regime will not, has not, never has complied 
with any international agreement. In fact, just a few years 
ago, the regime signed two international human rights accords. 
Yet the tensions on the island have risen. Valiant defenders of 
democracy, like Las Damas de Blanco, the Ladies in White, face 
weekly beatings. In addition, it is the Castro regime that does 
not comply with the mail accords that we signed with him from 
years ago. Meanwhile, a U.S. citizen languishes unjustly in a 
Cuban prison. Cuban activists, as we speak, are risking their 
lives on hunger strikes. And over 70 refugees, 70 fugitives 
have gone to Cuba for safe haven. There are fugitives from U.S. 
law, including, as you know, Mr. Sires, a cop killer from New 
Jersey.
    What is next with this administration? Enough is enough. 
Basta ya! The Cuban people deserve freedom and democracy just 
as all oppressed people do. And these talks will not help them 
achieve those goals.
    And Mr. Chairman, during the question and answer period, I 
look forward to asking our witnesses about the capacity and the 
willingness and the capability of the Caribbean nations to 
fight drug trafficking and whether the Mexican drug cartels are 
penetrating any of these countries. We have heard a lot about 
the Dominican Republic having been infiltrated by them.
    Thank you very much, Mr. Chairman.
    Mr. Salmon. Thank you.
    Pursuant to committee rule VII, the members of the 
subcommittee will be permitted to submit written statements to 
be included in the official hearing record. And without 
objection, the hearing record will remain open for 7 days to 
allow statements, questions, and extraneous materials for the 
record subject to the length limitation in the rules.
    I would like to introduce the first panel. Ambassador 
Brownfield is the Assistant Secretary for the Bureau of 
International Narcotics and Law Enforcement Affairs. Prior to 
his appointment, Mr. Brownfield served as U.N. Ambassador to 
Colombia, the Bolivarian Republic of Venezuela, and Republic of 
Chile. Pretty easy career there. Ambassador Brownfield is a 
graduate of Cornell University and the National War College. He 
also attended the University of Texas School of Law.
    Mark Lopes is the Deputy Assistant Administrator for the 
Bureau of Latin America and the Caribbean. He was formerly the 
senior policy adviser/staff director for the chairman of the 
International Development and Foreign Assistance Committee of 
the Senate Foreign Relations Committee. Prior to that, he 
served on the State Foreign Operations and Related Programs 
Subcommittee of the House Appropriations Committee. Mr. Lopes 
holds a BM from Berklee College of Music and an MPP from 
Harvard University's Kennedy School of Government.
    Ms. Ayalde is a career minister serving as a Deputy 
Assistant Secretary of State for Western Hemisphere Affairs, 
covering Cuba, Central America, and the Caribbean. She 
previously served as the USAID Senior Deputy Assistant 
Administrator in the Bureau for Latin America and the 
Caribbean. In addition Ms. Ayalde served as the United States 
Ambassador to Paraguay from 2008 to 2011. She holds a BA from 
American University in international studies and a master's 
degree in international public health from Tulane University. 
And also I understand that you have been nominated to be 
Ambassador to Brazil which is fantastic. We were just there. 
And they need a great person like you. So best of luck.
    And without further ado--I keep calling him Ambassador 
Brownfield but we will start with you.

  STATEMENT OF THE HONORABLE WILLIAM R. BROWNFIELD, ASSISTANT 
     SECRETARY, BUREAU OF INTERNATIONAL NARCOTICS AND LAW 
         ENFORCEMENT AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Brownfield. You may call me whatever you wish, 
Mr. Chairman.
    Thank you, Mr. Chairman, Ranking Member Sires, members of 
the subcommittee. Thank you for the opportunity to appear 
before you today to discuss CARSI and CBSI initiatives.
    Our strategic assessment is very simple. We believe the 
region suffers from a surge in drug trafficking and violence 
and all nations are affected. As efforts succeed in Colombia 
and Mexico, traffickers push into Central America and the 
Caribbean; therefore, we must pursue a coordinated strategy 
throughout the region. As the American people look to Central 
America, they see drug flows into the United States. But the 
peoples of Central America see violence, crime, and homicide. 
Our strategy must address both drugs and violence.
    Between 2008 and 2012, Congress provided more than $300 
million in funding to my bureau to support law enforcement and 
rule of law in Central America. Most Central American 
governments have increased their own tax and revenue base to 
provide more support for security and rule of law as well. What 
are we doing? We support police training and internal affairs 
units to identify and root out corruption. But reforming an 
institution takes a generation, and the people have a right to 
improved performance now. So we support special vetted units 
who can work high priority cases today. We link up with USAID's 
community development programs to support model police 
precincts in the poorest and most violent communities. We 
provide specialized training on drugs, criminal investigation, 
gangs, and special victims. And we provide training to 
prosecutors, judges, border guards, and corrections officials.
    Mr. Chairman, over the past year, homicide and violence 
rates have gone down throughout Central America, and I will not 
claim full credit for CARSI but clearly it is one factor. If 
Central America is today's crisis, then the Caribbean is 
tomorrow's challenge. I have said it before and I repeat it 
today, as our efforts in Central America begin to bite, 
trafficking organizations will search for alternative routes 
and networks and the Caribbean will look attractive. Drug flows 
through the Caribbean are tiny compared to Central America, but 
they are growing. In 1 year, they increased from 5-9 percent of 
total cocaine flow to the United States.
    CBSI is designed to work with Caribbean governments to 
reduce drug trafficking, strengthen citizen security, and 
improve justice. We are investing today to pay dividends 
tomorrow. We are building cooperation. Each country is 
different but our programs are regional. We train police in 
basic and specialized law enforcement. We train prosecutors, 
judges, and corrections officers. We support special units to 
combat drug trafficking and gangs. And the Coast Guard leads 
maritime exercises.
    In Trinidad and Tobago, we work to expand the national 
police academy into a regional training hub. Law enforcement 
throughout the Caribbean benefits from access to the Automated 
Fingerprint Information System, or AFIS, in working their 
caseloads.
    Mr. Chairman, this subcommittee has been generous in 
supporting our efforts in Central America and the Caribbean. 
There are some who call this mission impossible, insisting that 
we will never solve the problem. I am not one of them. I agree 
that it took us years to get into this situation and it will 
take years to get out of it. But the hemisphere is focused as 
never before. The OAS dedicated its general assembly 2 weeks 
ago to the drug issue. We are engaged. We are cooperating. And 
we are exploring new approaches and strategies. I believe we 
will have a good narrative to tell about Mexico and Central 
America. I look forward to telling it.
    Thank you, Mr. Chairman. And I look forward to your 
questions.
    Mr. Salmon. Thank you.
    [The prepared statement of Ambassador Brownfield follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Salmon. Ms. Ayalde, I would like to recognize you. 
Thank you.

 STATEMENT OF MS. LILIANA AYALDE, DEPUTY ASSISTANT SECRETARY, 
 BUREAU OF WESTERN HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Ayalde. Chairman Salmon, Ranking Member Sires, members 
of the committee, it is truly a privilege to join you here 
today. I appreciate the invitation and the subcommittee's 
continuous support for the administration's efforts to partner 
with our neighbors in the Western Hemisphere to increase 
citizen security particularly through the Central American 
regional security initiative, CARSI and the Caribbean Basin 
Security Initiative. I wish to focus my comments today on the 
administration's efforts to meet pressing challenges in this 
region and to galvanize the international community to work 
effectively to ensure that our combined efforts are impactful. 
The security needs, rule of law capacity deficits, and 
requirements for improved quality and quantity of basic 
government services for citizens of Central America and the 
Caribbean are beyond the capability of any single nation or 
donor. Therefore, an international approach to coordinating and 
leveraging our efforts is essential. The administration has 
highlighted this message at the highest levels at various 
international forums in recent months. President Obama visited 
Costa Rica in May where he met with the seven heads of state of 
the Central American Integration System, SICA, and the 
Dominican Republic. He emphasized to them the importance of 
shared partnership and our commitment to continue working with 
the region on issues related to security. He also emphasized 
the critical link between security and economic opportunity and 
prosperity. The President stressed that our aim is to reinforce 
security and opportunity in every sense, not only combating 
crime but ensuring that human rights are respected and 
communities are secure in their access to food, energy, 
education, health care, social services, and financial and 
economic opportunity.
    Vice President Biden also championed this message when he 
met with the Caribbean leaders in Port of Spain, Trinidad and 
Tobago last month. Just last week, Secretary Kerry traveled to 
Guatemala where he participated in the annual general assembly 
of the Organization of American States, the OAS. Secretary 
Kerry countered the misperception that U.S. counternarcotics 
policy is primarily focused on law enforcement by highlighting 
our comprehensive plan that addresses demand, prevention, and 
treatment.
    In April, as part of our effort to strengthen multilateral 
approaches to supporting Central America, the Department held 
the first North America-SICA Security Dialogue in Washington. 
Canada, Mexico, the United States and the seven SICA countries 
participated. The dialogue provided an opportunity to discuss 
enhancing regional coordination on security programming and it 
specifically focused on the themes of precursor chemicals and 
violence prevention. It provided a forum where we were able to 
discuss these issues and begin a process of bringing additional 
resources and commitments to specific problems faced in both 
Central and North America.
    We have reinforced our message with much needed support 
through the CARSI and CBSI initiatives that have been 
generously funded by Congress, and we are seeing the fruits of 
these efforts as partner nations demonstrate increased 
political will and the prioritization of their most pressing 
citizen security, rule of law, human rights, and prevention 
challenges.
    The Guatemalan Government, for example, achieved a 20 
percent increase in the number of murder cases brought to trial 
in Guatemala City over the last 2 years. In Salvador, the 
government's commitment to reducing urban violence has exposed 
over 6,000 students to the gang resistance education and 
training program. In the Caribbean, Dominica recently passed a 
comprehensive civil asset forfeiture law with a dedicated 
forfeiture fund to ensure that seized illicit proceeds are used 
to strengthen law enforcement, prosecution, and drug abuse 
treatment and prevention. This is the first such law passed 
anywhere in the eastern Caribbean.
    The Government of Jamaica has embraced a comprehensive 
police anticorruption program that includes an anticorruption 
branch of the Jamaican Constabulary Force. We are watchful that 
success against the criminal enterprises in Mexico, Colombia, 
and Central America could drive them increasingly to the 
Caribbean for new opportunities and trafficking routes.
    With CBSI assistance, we have an opportunity to address 
vulnerabilities in the infrastructure, build government and law 
enforcement capacity, and engage at-risk youth before 
transnational and other criminal elements can take hold. It is 
only through our continued support, the support and expertise 
of other donor nations, and the commitments of our partners in 
the region that we can prevent an increase in crime in the 
Caribbean.
    As a partner of Central America and the Caribbean, it is 
the goal of the United States to continue to support these 
regional and national efforts and to utilize our diplomatic and 
political resources as well as foreign assistance to foster 
enhanced levels of sustained dialogue and collaboration to turn 
today's citizen security challenges into a catalyst for 
building a more secure and prosperous future for the 
hemisphere.
    Thank you again for this opportunity to discuss these 
issues with you, and I look forward to the questions.
    Mr. Salmon. Thank you.
    [The prepared statement of Ms. Ayalde follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Salmon. Mr. Lopes.

 STATEMENT OF MR. MARK LOPES, DEPUTY ASSISTANT ADMINISTRATOR, 
  BUREAU FOR LATIN AMERICA AND THE CARIBBEAN, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Lopes. Thank you, Chairman Salmon, Ranking Member Sires 
and members of the subcommittee. Thank you for the opportunity 
to appear before you today.
    USAID's work in security is focused on addressing the root 
causes of crime and violence not only because of the 
implications for U.S. national security but because high levels 
of crime and violence threaten to stall economic and democratic 
progress as well. The heart of our work in this area is through 
prevention programs designed to complement and reinforce 
government efforts to improve the rule of law, strengthen the 
capacity of municipalities to prevent crime, and create 
additional educational and employment opportunities for youth 
most susceptible to joining gangs.
    To ensure that we have the greatest impact on the most 
people, our efforts are largely focused in high crime urban 
areas of El Salvador, Guatemala, and Honduras. Governments in 
the region are largely abandoning the previous decade's failed 
mano dura or ``iron fist'' crime fighting tactics in favor of 
more prevention-based approaches. We welcome this change.
    For example, the Government of Honduras declared 2013 the 
year of prevention. The Government of El Salvador recently 
launched a new municipal crime prevention policy that we think 
is a healthy framework within which to operate. USAID is 
employing several novel approaches, a couple of which I will 
mention here. First, because no single actor involved has all 
the answers, we are aggressively working as a broker to share 
lessons from places that have had success. Countries like 
Brazil and Colombia have much to offer in this respect. Also, 
through an agreement that we signed with the City of Los 
Angeles, USAID is adapting L.A.'s proven gang reduction message 
in identifying youth susceptible to joining gangs and organized 
crime. We are also connecting city officials in the region with 
our counterparts in places like Arlington, Texas; Santa Ana, 
California; Pinellas County, Florida and tailoring successful 
models accordingly.
    Second, given the size and scope of these challenges, donor 
investments are not enough. Countries must generate and invest 
their own resources. For this reason, we are testing models 
that allow them to bring in more money, particularly at the 
municipal level. And in El Salvador and Honduras we launched a 
revenue challenge competition to increase the collection of 
unpaid fees. Cities that do this well will get a modest subsidy 
to reinvest in crime reduction programs. The idea behind this 
is to invigorate local government ownership, increase resources 
for prevention and thereby build their capacity to play a 
greater role in the solution.
    Third, governments and donors are not the only 
stakeholders, and therefore USAID is increasingly engaging with 
the private sector. Through partnerships with Chevron, Hanes 
brands and Starbucks we are working to physically transform 
more than 150 schools in the region. We also work with telecom 
operators and mobile phone companies who provide free Internet 
access in our outreach centers and who develop the mobile crime 
system that enables law enforcement in five municipalities to 
track, report, and analyze real crime data. The innovations 
brought by these companies are as valuable if not more valuable 
as their financial contributions.
    And lastly, our programs under CARSI would have little 
impact if they were not embraced by youth in the region. Most 
of them have a mother, a brother, a sister, a cousin who they 
can help galvanize around violence prevention. USAID is proud 
to support the Central American Youth Movement Against 
Violence, which now has chapters in all seven Central American 
countries, and in February 40 of these youth presented their 
ideas to the Presidents of Central America at a gathering in 
Costa Rica. In the Caribbean our programs are similar in spirit 
to those in Central America but focus more on crime rate 
prevention, including education and government capacity 
building, working in close partnership with national and 
regional governments.
    Mr. Chairman, we also work across a range of other sectors 
under the premise that it takes more than prevention and law 
enforcement to advance durable security and prosperity. By 
keeping children in school, training young people for jobs, 
connecting farmers to markets, lifting rural poor out of 
poverty, preserving natural resources, and reaching out to 
historically marginalized groups, we contribute to a broader 
effort to make the region more peaceful and more prosperous.
    Thank you again for the opportunity to share our programs 
with you, and I look forward to sharing your guidance.
    Mr. Salmon. Thank you.
    [The prepared statement of Mr. Lopes follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Salmon. I would like to yield myself 5 minutes to ask a 
question. And then I will go to the ranking member and the 
other members on the panel here today. This question is for 
both Ambassador Brownfield and Deputy Assistant Secretary 
Ayalde.
    There have been concerns about the Honduran Government's 
efforts to confront corruption and criminality in its police 
force and about State Department's Fiscal Year 2012 
certification of Honduras. In your estimation, has the Honduran 
Government met the conditions for certification? And can you 
explain State's rationale in reaching that decision to certify? 
Second, what is the impact on your programs and progress from 
the Senate holding up the funding?
    Ambassador Brownfield.
    Ambassador Brownfield. Do you want to start on 
certification? I will follow up.
    Mr. Salmon. Yes, that is fine.
    Ms. Ayalde. We have not issued the report yet. We are 
following the situation very carefully. Obviously we are, like 
others, concerned with some of the issues of impunity and human 
rights. But we believe that our commitment is to the Honduran 
people, and we are looking for ways that we could continue to 
do so while adhering very closely to the legal restrictions.
    Ambassador Brownfield. Mr. Chairman, from a programmatic 
perspective, the impact on our ability to conduct our programs 
is this: First, we try to have programs that directly attack 
the problem, the problem being evidence of corruption and call 
it misbehavior or abuse of authority in law enforcement and 
security elements. We attempt to address the problem by 
training at base level or basic level for those in the police 
and security forces and, second, by supporting the 
establishment of internal affairs divisions that are able to 
identify the corrupt or abusive individuals and eventually 
remove them from service.
    Second, we are applying the strictest possible vetting 
standards to those units and individuals with whom we work, by 
which I mean we use the community that assesses these matters, 
the human rights community, the legal community, the policy 
community both here in Washington and in the field in Honduras 
to determine which individuals and which units are reasonably 
believed to have committed these abuses in the past or are 
continuing to commit them in the future. And those individuals 
and units, we will not work with. We will find, in some cases 
we apply a lesson by which we have two degrees of separation. 
For example, if a particularly senior official is found to have 
committed these abuses, we not only will not work with that 
official, we will not work with anyone that reports to that 
official. We will be at least two steps below that individual 
before we would work with anyone in that institution.
    What has been the impact of the Senate hold? Mr. Chairman, 
there is currently $10.3 million on hold. This funding would be 
used to support the ability of the Honduran national police to 
conduct interdiction, drug interdiction operations, 
particularly in the isolated northern region of the country. 
The impact of the hold at this point is our inability to deploy 
or support the deployment of Honduran national police in that 
area. That in and of itself is not a disaster. The problem of 
course is just as you and I realize this, so do the drug 
traffickers. And as they realize that this is a zone where the 
police cannot reach, it obviously for them becomes a very 
inviting area through which to traffic their product.
    Mr. Salmon. Thank you. I am going to yield back the balance 
of my time and recognize the ranking member.
    Mr. Sires. You know, I read before where nearly $500 
million had been appropriated for CARSI and about $200 million 
had been appropriated for CBSI. Recently, the Government 
Accounting Office reports suggest that less than 28 percent of 
CARSI and roughly 90 percent of CBSI funds have been 
distributed. Can you expand upon that why? It just seems that 
we could have done a better job of appropriating more money.
    Ms. Ayalde. Yes, sir. It did take a while to get started. 
In the Caribbean, we are working with 13 different governments 
with different levels of capacity. And we have to ensure that 
there were institutions that were going to be good partners in 
working that. I think it took a while to get started but we are 
at the right pace right now where we are cranking up a number 
of activities. So only to say that we recognize the slow start 
but we had to be comfortable and assured that there would be 
transparency in the use of funds and that the partners would be 
able to carry out their commitments. So we are at that place. 
In fact, it is unique to see that the governments of the region 
have taken the framework of CBSI as theirs. We believe that 
this is very positive. Other donors, including the Canadians 
who are helping us coordinate among all the donors that are 
participating in the Caribbean, are coordinating under the 
leadership of Canada, and they are also using the framework of 
CBSI.
    So it took a while to get started but I think that we are 
at the right moment right now. So we recognize that slowness.
    Ambassador Brownfield. Congressman, if I could add a little 
bit of gloss from my side. And I will run the specific figures 
by you. The GAO report was assessing a period of time that 
concluded with Fiscal Year 2011. Since then, we have gone 
through another whatever number of months we have since then, 
another 18 months. Things have happened in that period of time. 
Between 2008 and 2012, the INL account, which I am responsible 
for for CARSI Central America was $305 million. Of that $305 
million, $294 million is now obligated. The remaining $11 
million that is unobligated is the $10.3 million that I just 
described to Chairman Salmon and another couple of hundred 
thousand on another program. Of that sum, more than half has 
actually been spent. In other words, the obligation is us 
reaching agreement with the governments on how it will be 
spent. And the spending, which is a separate process, has 
actually moved forward to well over 50 percent as opposed to 
the 20 percent number that you had.
    In the Caribbean, the figure is between 2010 and 2012 for 
our INL funds. Ninety-five million dollars total of which 
eighty-three million dollars has been obligated, a figure of 
just under 90 percent. I expect that remaining $12 million to 
be obligated before the end of this fiscal year. Our 
liquidation rate has been a bit slower in the Caribbean than in 
Central America for the reasons that Liliana just indicated, 
which is to say we are starting up. We are coordinating with 
many different governments. This is not the Plan Colombia or 
Merida where we are coordinating with just one government. We 
are coordinating with 13 in the Caribbean or seven in Central 
America. The coordination takes time. And finally to be 
absolutely honest with you we were starting at very close to .0 
in terms of the personnel and staff that we had in the field. 
And I had to beef them up. I had to add additional staff to our 
sections in three of our six working Central American 
Embassies. And we are adding additional personnel in the 
Caribbean. I think the story from this point on will be much 
better for you.
    Mr. Sires. Okay. Thank you.
    Mr. Salmon. Thank you.
    I recognize Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. And the timeliness of 
this hearing is ironic. It was almost a year ago today that the 
Committee on Homeland Security Oversight Subcommittee that I 
now chair had a hearing on a very, very similar topic, on June 
21 had a committee hearing titled U.S.-Caribbean Border: An 
Open Road for Drug Traffickers and Terrorists. The witnesses 
were the Honorable Luis Fortuno of Puerto Rico and Rear Admiral 
William Lee, Director of Operations Policy and Capability of 
the United States Coast Guard. So during that hearing, we 
talked about the Caribbean region being possibly a potential to 
become an unlocked back door to the continental United States 
not only for drug traffickers but terrorists as well. And given 
the confluence of actors in the region, namely drug cartels, 
terrorist organizations like Hezbollah, antagonistic Latin 
American leaders like the former Hugo Chavez, the Caribbean has 
a potential to become a region hostile to the United States. 
What is more, given the Caribbean's geographical proximity to 
the United States mainland, this threat is even more 
unsettling. And during that hearing, we talked about the 
Caribbean being astride to major shipping lanes from South 
America, North America and even Europe, how appealing that is 
to drug traffickers moving cocaine from South America and 
Mexico.
    So I say all that saying that this hearing is great as a 
follow-up so to what we learned there. And then shortly 
thereafter, I traveled to Bogota and met with the Colombians 
and really learned about what we were doing with the Colombian 
Government and helicopter training and a lot of other training 
to the tune of about $10 billion I think over a decade. And so 
the question I have is, do you see a segue to build on that 
Colombian experience? And then how do you see Colombia working 
in this? And I will ask Ambassador Brownfield there because I 
certainly enjoy his testimony in Congress. He has come several 
times. And I think he is very knowledgeable. How do we see 
Colombia as possibly being an ally in the region to train maybe 
the Hondurans or the Guatemalans, Salvadorians and they may not 
go to U.S. for training, but they may go to an ally within 
Latin America for training. So are they a willing partner? Do 
you see the benefit of that? And how may that help in the 
Caribbean nations as well?
    Ambassador.
    Ambassador Brownfield. Sure. Let me start, Congressman, and 
then yield to the good Dr. Ayalde or good Dr. Lopes if they 
wish to add on. I think it is an excellent question and even 
better, it is an opportunity for me to make a couple of points 
about Colombia, a country with whom I have had some 
considerable experience, including I would like to think 3 
years during which we were trying to lay the groundwork for 
exactly what you have just described.
    I believe Colombia plays a very useful role in two senses. 
One, lessons that we have learned there, frequently, the hard 
way between January 2000 when Congress first appropriated funds 
to support Plan Colombia and today. Lessons in terms of how you 
do these sorts of programs, how you cooperate and collaborate. 
How you engage other partners. How you try to bring together 
the security side of a program with the developmental side of 
the program. How you sequence it. How you figure what your end 
game is so that we are not asking Congress to support a program 
forever. There are a lot of lessons that we have learned in 
Colombia that we can apply in Central America or the country to 
the immediate north of Central America or among the 14 
countries of the Caribbean.
    The second important fact--and I use the word ``fact'' to 
talk about in the Colombia sense--is how Colombia itself plays 
as a service provider and supporter in these programs because 
let me be absolutely frank and blunt. Right now the Colombian 
national police is training more police and law enforcement in 
Central America than all of U.S. law enforcement put together. 
Now, some of it is supported by us. So it in essence it is 
CARSI funding, Plan Colombia funding, or some cases, even 
Merida funding that does this. And it does it because it is 
cheaper for us to have the Colombian national police provide 
this training than us doing it ourselves. Sometimes it is the 
Colombians themselves providing that training. They are at this 
point training in four of the seven countries in Central 
America. They are providing training and support in the 
Dominican Republic in the Caribbean. They are open to further 
engagement. I actually believe we get excellent value either by 
Colombians training in third countries or by us bringing law 
enforcement personnel from those third countries to train in 
many of the Colombian training institutions that we helped 
support and set up during Plan Colombia from the year 2000 to 
2010. I think we actually should be looking forward and looking 
for ways to engage Colombia more and more effectively in this 
effort. From my perspective, it is a dividend that we get for 
our more than $9 billion of investment in support for Plan 
Colombia over the last 13 years.
    Mr. Duncan. That is exactly the points I wanted to be 
brought out. I appreciate your service there. And my time is 
about out. But ma'am, you act like you want to chime in, if the 
chairman will allow it.
    Ms. Ayalde. Just very quickly to complement what the 
Ambassador has mentioned. Colombia is also very eager to be 
engaged. We have included Colombia as a member of this North 
America-SICA Dialogue because of their interest at not only at 
the operational levels such as training and technical 
assistance but also in providing some strategic guidance. For 
instance, whether there is a reform of the police--and to give 
an example, in Honduras, whether there would be some value 
added in providing some guidance because of the experience. And 
we see that as a big plus. They have also expressed an interest 
and are engaged in the forums that we hold to coordinate 
strategic directions in the Caribbean. So just as a complement 
to what has been said.
    Mr. Duncan. Thank you so much. Those are the points I 
wanted to make. I appreciate it. Mr. Chairman, I yield back.
    Mr. Salmon. Thank you.
    I recognize Mr. Radel.
    Mr. Radel. Thank you, Mr. Chair. I have a question for Mr. 
Lopes. Can you tell me if the programs in Central America have 
any kind of a list of individuals that we trained with our 
CARSI funds? So what I am getting at here, I am curious with 
our taxpayer dollars being spent, do we have a quantitative 
measure on who, how many people we are training and maybe more 
importantly how many we retain?
    Mr. Lopes. Certainly. Thank you. I will touch on our 
outreach centers which I am not sure is where your question is 
going. But then maybe I can ask a follow-up. I think we have 
got a range of programs in Central America focused on at-risk 
youth and municipal capacity building. Some of that has a 
training element. Some of that has an outreach element. We have 
got 100 centers throughout the northern triangle countries as 
well as in Panama. Combined, those efforts in 2012 have reached 
about 90,000 people. As I mentioned in my opening statement, 
there is a lot of secondary benefits to individuals who are 
involved in these outreach centers. Sometimes these are youth 
at risk. We have also got more structured training programs in 
terms of employment opportunities and job generation work that 
we use to target in particular areas where people are 
vulnerable to engaging in either illicit activities or gang 
activities. In terms of impact, we have seen encouraging 
results. We have also looked in a scientific way--and I know 
that this committee is concerned with impact rather than just 
output. And we as well are concerned not just in the region but 
around the world that as USAID we have got a treatment and 
control group of communities whereby we look scientifically 
according to a series of factors with a baseline and a mid 
term. That study is not over yet but that mid term evaluation 
has shown statistically significant impact in terms of the 
treatment communities doing better than those control 
communities.
    Mr. Radel. So those are kind of qualitative measures. Do we 
have lists--correct me if I am wrong here. But we pay people, 
right, that have roles that play within this. Do we have 
knowledge lists of who these people are and whether we retain 
them over a certain amount of time that continue to do the 
work?
    Mr. Lopes. Certainly. I mean, we would be happy to follow 
up in terms of whether it is individuals or profiles and 
whatever information that would be helpful.
    Mr. Radel. Okay. So it would be clerks, judges, police.
    Mr. Lopes. In terms of the justice reform programs and the 
work in terms of training for judicial officials, we can 
certainly provide you with details on exactly who these 
individuals are.
    Mr. Radel. And police officers.
    Ambassador Brownfield. If it is police, Congressman, the 
reason Mark is ducking that question, if it is police, I do it. 
And yes, we do do it and we can provide those sorts of numbers 
for you.
    Mr. Radel. Okay. Great. We will get that then in writing.
    [The information referred to follows:]
 Written Response Received from the Honorable William R. Brownfield to 
     Question Asked During the Hearing by the Honorable Trey Radel
    The Bureau of International Narcotics and Law Enforcement Affairs 
(INL) maintains a record of International Law Enforcement Academy 
(ILEA) student alumni, including those who received training funded 
under the Caribbean Basin Security Initiative (CBSI) and Central 
America Regional Security Initiative (CARSI). Each ILEA management 
staff is tasked with maintaining ILEA alumni training information.
    Law enforcement professionals from Central America and the 
Caribbean receive training funded under CBSI and CARSI at ILEA San 
Salvador. Since 2005, approximately 4,400 alumni from Central America 
and the Caribbean received training at ILEA San Salvador. This total 
includes 203 alumni from Belize, 371 from Costa Rica, 1759 from El 
Salvador, 617 from Guatemala, 514 from Honduras, 180 from Nicaragua, 
365 from Panama, 23 from Antigua and Barbuda, 70 from the Bahamas, 51 
from Barbados, 15 from Dominica, 15 from Grenada, 7 from Guyana, 67 
from Jamaica, 12 from St. Kitts and Nevis, 14 from St. Vincent, 21 from 
St. Lucia, 45 from Suriname, and 42 from Trinidad and Tobago.
    In addition to providing high-quality training for ILEA 
participants from Central America and the Caribbean, the ILEA Program 
conducts six-month post course evaluations as part of the six-week Law 
Enforcement and Leadership Development (LELD), or Core Program. This is 
the first year we have conducted six-month evaluations for the LELD 
Program, and we will utilize this data to gauge alumni knowledge 
retention and make necessary adjustments to improve course delivery. 
The LELD six-month evaluation does not track whether or not ILEA-
trained officials remain in their positions.
    INL works closely with the Bureau of Democracy, Human Rights, and 
Labor to ensure all candidates who attend ILEA courses are vetted in 
compliance with Department and Leahy vetting requirements, and this 
includes alumni who return for additional coursework. ILEA does not 
continue to vet alumni after graduation, but we have no information 
indicating that any officials trained at the ILEA have later been 
implicated in human rights abuses or have been prosecuted for 
corruption.

    Mr. Radel. Thank you. I appreciate your time.
    Thank you, Mr. Chair. I yield back the balance of my time.
    Mr. Salmon. Thank you. We would like to get to the next 
panel. But before I do, I have a question I would like to just 
ask and have you submit in writing. I know you have already 
been detained way too long. But my question would be, 
Ambassador Brownfield, CARSI aid is divided among seven 
countries. Actually all three of you, if you could submit any 
relevant answers to this. The CARSI aid is divided among seven 
countries as well as regional programs. How much funding has 
been allocated to each country? And how are those allocation 
decisions being made? Are any of the countries not receiving 
any or certain types of CARSI aid at this time? And if so, why 
not? And finally, to what extent is CARSI aid tied to 
demonstrations of political will by partner governments? And do 
we have an idea of how much the region spends on their own 
security for every dollar the United States contributes? And I 
want to thank you very much. And I will have staff provide 
those questions to you as well. But if you could respond back, 
I would really appreciate it. And thank you so much for your 
patience today. And thank you so much for your wonderful 
testimony. And it is always a pleasure.
    [The information referred to follows:]
Written Response Received from the Honorable William R. Brownfield, Ms. 
Liliana Ayalde, and Mr. Mark Lopes to Question Asked During the Hearing 
                      by the Honorable Matt Salmon
    The Central American Regional Security Initiative (CARSI) is a 
whole-of-government multi-year program that responds to security 
threats in Central America and supplements strategies and programs the 
nations of Central America are implementing on their own and in 
cooperation with other countries. The $496.5 million in U.S. CARSI 
assistance committed to date (FY2008-2012) supports: law enforcement 
and counternarcotics efforts; rule of law and capacity building, 
including police and judicial reform and anti-corruption; and 
community-based violence and drug prevention to address the root causes 
of crime and violence and build more resilient communities. CARSI funds 
are allocated across all seven countries in the region. Guatemala, 
Honduras, and El Salvador, the three northernmost countries, receive 
the majority of CARSI funding given their particularly high levels of 
crime and weak rule of law institutions, and the remaining funds 
support regional and national programs in the rest of the region.
    We prioritize our citizen security assistance, including the 
allocation of resources and programming, in the nations that are most 
severely affected by transnational organized crime, including narcotics 
trafficking and gangs. We work with our international partners through 
the Group of Friends of Central America donor coordination process, our 
embassies, interagency partners, host nations, and the Central American 
Integration System (SICA) to determine the scope of the threat to 
citizen safety in each nation and the needs and deficiencies of host 
nation law enforcement, rule of law, and prevention capacity and 
institutions. Then, based upon limited U.S. resources, the actions of 
other donors, and host nation capacity to absorb U.S. assistance, we 
determine the assistance for each nation. In Belize, El Salvador, 
Guatemala, and Honduras, we are focusing on replicating programs that 
have proved successful in other countries and that can make short-to-
medium-term impact, including municipal crime prevention planning, 
critical youth-at-risk services, model precincts and community policing 
in crime-ridden municipalities, and border interdiction programs. In 
Costa Rica, Nicaragua, and Panama, we are supporting host-nation 
efforts to reduce growing levels of insecurity and to rebuild the 
capabilities of their rule of law institutions.
    Governments in the region have come a long way over the years in 
acknowledging the scope of the security threats, taking responsibility 
for addressing them, and undertaking serious institutional and policy 
reforms to improve citizen security. Governments are passing new laws 
to generate taxes and revenue supporting investment in citizen security 
programs, extradition, judicially authorized wiretapping, and asset 
forfeiture. They are also developing community-based approaches to 
reduce violence and taking steps to address difficult issues, including 
internal affairs and police reform. This growing political will is 
evident at the regional level.
    Through SICA, the nations of Central America are showing an 
unprecedented level of transnational cooperation on security. This is 
essential, because drug traffickers and criminal networks do not 
respect national boundaries, and no single country can defeat these 
criminals alone. We must work together to address this shared regional 
threat. We have much more work ahead of us, and we have encouraged the 
region's leaders to devote more resources to these challenges and to 
continue to combat corruption and impunity.
    Fiscal year 2012 CARSI allocations, through both Economic Support 
Funds (ESF) and International Narcotics Control and Law Enforcement 
Funds (INCLE), were as follows:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Salmon. We will have one more question. I am sorry.
    Mr. Meeks. Thank you, Mr. Chairman. I am sorry about 
sneaking in there. In my Financial Services Committee we had 
some votes going on. But I did not want to miss the opportunity 
to ask a few questions of this distinguished panel that we have 
before us on topics that are most important to me.
    And I just want to thank you, Mr. Chairman, also though for 
your focus on regional security concerns you know as a top 
priority for this subcommittee. I think it is exactly the right 
place. But let me not dilly-dally. Let me just go straight to a 
couple of questions that I don't believe were asked. My staff 
was listening and they told me which questions were and which 
were not. Mr. Sires may have asked everything but I didn't ask 
at all.
    So in regards to the--overall, dealing with the Caribbean 
drug transshipment, overall the use of the Caribbean as a 
transshipment point for illicit drugs from South America to the 
United States I am told has diminished over the past 10-15 
years as drug traffickers have shifted primarily to using 
Mexico and Central America corridor. What is your assessment of 
the current status of drug transshipment through the Caribbean 
and have you seen any increase recently due to law enforcement 
efforts in Mexico and Central America? Let me add on to that, 
to what extent is the Caribbean equipped to contend with an 
increase in the use of the region for drug transshipments and 
to what extent has the CBSI helped increase the interdiction 
and law enforcement capacity of the Caribbean nations to 
contend with the increase in illicit drug trafficking?
    Just a few questions.
    Ambassador Brownfield. Mr. Chairman, I am sure I speak for 
the entire panel when I say we would be deeply disappointed 
were we not to have received any questions from the 
distinguished gentleman from Queens. I will be delighted to 
offer at least the start of an answer on these and let my 
friends Drs. Ayalde and Lopes follow up as they think 
appropriate.
    What have we seen by way of trends of drug shipments moving 
through the Caribbean? Here is my simple answer to that 
question, Congressman: We see drug transshipments through the 
Caribbean as still a tiny percentage of that which moves 
through Central America and Mexico but it is growing. In 
between 2011 and 2012, the last year for which we put together 
reasonably good statistics so far since traffickers do not 
report their business to official government institutions, we 
calculate that the amount that has been transshipping through 
the region has jumped from 5 percent to 9 percent of the total 
that is coming to the United States of America. Nearly 
doubling. The overwhelming majority of that flows through the 
island of Hispaniola, the Dominican Republic and Haiti and 
probably the majority of that that flows through Hispaniola 
flows through the Dominican Republic. The trend therefore is 
obviously moving in an upward direction.
    And I would add a second point. It is perfectly logical 
that that happen. The logic is as follows: In the early 2000s, 
we squeezed them in Colombia and a lot of them moved their 
operations to Mexico. Beginning in 2007-2008 we started to 
squeeze them in Mexico and they moved into the Central American 
region. Starting around 2009, we began to squeeze them in 
Central America. What are they going to do? One option is that 
they all go out of business, open beach cabanas, and live 
happily ever after as entrepreneurs. The other is they will 
look for an alternative and cheaper place to do business. And 
when they start that search, the Caribbean and those old 
networks that we took down in the 1980s and the 1990s are going 
to look very attractive.
    And that, Congressman, is what CBSI from my perspective is 
all about. We are investing in the future. We are trying to 
build both the capabilities and the cooperation among the 13 
cooperating governments of the region so that they will be 
prepared to address this reality that I see coming down the 
road. We are talking about many States that are very small, 
vulnerable because they do not have the resources and the 
personnel to perform this mission who require this degree of 
cooperation and support from us in order to be able to do it. 
If we do our job right today, this is not a story in 2 years 
time. We will know in 2 years whether we have done our job 
right.
    Ms. Ayalde. If I may, sir, just to add to that, everything 
that is being done is done through the optics of institution 
building. To give an example, we have two advisers from ATF 
that are posted in the Caribbean to provide technical 
assistance on trafficking of small arms. It is a big issue in 
the Caribbean, and they are overwhelmed with how to deal with 
it. The adviser has been placed in a regional institution. They 
are being encouraged to share information which is not very 
natural to them. But the idea is that they will get the 
procedures, the way things are done to try to track these small 
arms. They are being trained and they will have the know-how of 
where to go with this information and what to do with it.
    So again, it is about institution building, making sure 
that what we do is not just for today but for tomorrow.
    Mr. Meeks. Let me just ask this if the chairman wouldn't 
mind, also, let me just ask about--we did Plan Colombia. We 
also had a part of dealing with economic development in the 
area so that the locals would not have to resort to selling 
drugs, et cetera, when that happens. So are we still doing the 
same thing here? Are we doing enough to encourage the economic 
and as you talk about institutional development while we work 
on security also?
    Ms. Ayalde. I have to admit that that is an ongoing 
challenge because these are small states. In many cases they 
are struggling with their fiscal health. You may be very 
familiar, for instance, with Jamaica and how much we worked 
with them to try to get them to sign the IMF agreement and some 
of the very hard choices they have to make. So we have to look 
at it. And this is what President Obama has been saying, the 
investment in the economy and that prosperity is essential to 
the sustainability of anything we do in security.
    It is a challenge in the case of the Caribbean because they 
are small states, they depend a lot on tourism. And we have 
limited resources. AID is present in a very limited way and so 
we don't have as many tools. But what we do have is more 
creative ways of working with the business sector. For 
instance, I am traveling to Barbados in about a week to launch 
the American Chamber of Commerce there to be working in the 
eastern Caribbean, and we are encouraged to be able to attract 
more business and investment.
    Mr. Meeks. Mr. Chairman, I was a little late, but could I 
ask unanimous consent to submit my opening statement for the 
record?
    Mr. Salmon. Absolutely. Without objection.
    Thank you very much for your testimony. We really 
appreciate it. Thanks again for your patience.
    Mr. Radel [presiding]. We would like to go ahead and 
welcome our second panel. Thank you so much for being here. 
Let's go ahead and run through the bios real quick here.
    Eric Olson, a member of our second panel here, is the 
associate director of the Latin American program at the Woodrow 
Wilson International Center for Scholars. His research and 
writing is focused primarily on security issues and the impacts 
of crime, organized crime and violence on democracies. He has 
also written about reform of police and judicial institutions 
as a vehicle for addressing the problem of rapidly expanding 
crime in the Americas, which is what we are dealing with here 
today. Prior to joining the Wilson Center he was a senior 
specialist in the Department for Promotion of Good Governance 
at The Organization of American States from 2006 to 2007.
    Mr. Olson also holds a BA from Trinity College in history 
and secondary education and a Master's Degree in International 
Affairs from American University. Again, thank you for being 
here.
    Over to Mr. Michael Shifter. Mr. Shifter is the President 
of the Inter-American Dialogue. Since 1993, Mr. Shifter has 
been an adjunct professor at Georgetown University's School of 
Foreign Service, where he teaches Latin American politics, 
which is a little complicated from time to time. Prior to 
joining the Inter-American Dialogue, Mr. Shifter directed the 
Latin American and Caribbean Program at the National Endowment 
for Democracy.
    Mr. Shifter holds a BA from Oberlin College in Sociology 
and political science and a Master's Degree in sociology from 
Harvard University.
    We will go ahead and go along with the testimony and I will 
start with Mr. Olson. You are recognized.

   STATEMENT OF MR. ERIC L. OLSON, ASSOCIATE DIRECTOR, LATIN 
   AMERICA PROGRAM, WOODROW WILSON INTERNATIONAL CENTER FOR 
                            SCHOLARS

    Mr. Olson. Thank you so much, and I appreciate your staying 
on and overseeing this hearing, and thank you also, Mr. Meeks. 
I know he spent a lot of time looking at issues of democracy 
and security in Latin America, particularly in the Andes 
region, so thank you for being here as well.
    I have submitted some written testimony to the committee 
already so I would like to, with your permission, just make 
some summary remarks on that.
    I just came back from 10 days in Central America in the 
northern triangle of Guatemala, Honduras and El Salvador, so 
much of what I say reflects that 10-day travel to the region. 
But I also lived in Honduras for 2 years in the 1980s and have 
repeatedly traveled to the region over the last 20-25 years.
    And while I consider myself an optimist at heart, hopeful 
by nature, I have to admit that I feet a bit of sense of dj vu 
listening to our panel before us, all wonderful people that I 
have enormous respect for. But some of what we have been 
talking about here today is the same things we were talking 
about 20 years ago, building institutions, strengthening 
capacity, so on and so forth. So there is a time at which one 
has to ask oneself, are we really being successful, are we 
really doing the right things? And I don't question the goal. 
The problem is not the goal, it is the method to getting there, 
and I do have to say that I have some serious questions about 
how we are going about it simply because it is not producing 
the results we would like to see, and, to be honest, what the 
people of Central America want to see and deserve to see. So 
that I just offer as a preface.
    I would just say in a word that the security situation in 
the northern triangle in particular, Honduras, El Salvador, 
Guatemala, is dire. I don't want to call it a crisis, but it is 
dire. Organized crime and trafficking is rampant. And we are no 
longer talking just about drug trafficking, we are talking 
about human trafficking, trafficking in minerals, gold 
increasingly, other minerals, petroleum products. I mean, you 
name it, there is trafficking going on. And what that means is 
that the income from those businesses is phenomenal and the 
coercive effects of that kind of trafficking is tremendous.
    Gains, especially in El Salvador and Honduras, are a daily 
reality for people in big urban areas. And although there has 
been a truce declared in El Salvador and the homicide rates 
have gone down, extortion is still rampant. People are afraid 
of taking buses because they get held up consistently and 
regularly. So that is an issue.
    One of my missions on this trip was to begin an assessment 
of the borders in Central America. You can only imagine the 
number of problems. To say it is porous and open borders is to 
say the obvious. There are eight official crossings between 
Guatemala and Mexico and 122 estimated informal crossings. And 
I am not talking about foot paths. These are areas where trucks 
drive across rivers and where boats traverse rivers without any 
kind of control.
    Conversely and ironically, at the official ports of entry 
there is enormous inefficiency for commerce, legitimate 
commerce, where there is high levels of corruption and trucks 
and people bringing products in are stuck for days on end.
    So the situation again is dire. There are areas of the 
countries where there is no effective state presence--I am 
sorry, areas of the region where there is no effective state 
presence, and even in areas where there are authorities who are 
elected, many times, and I don't want to overstate it, but many 
times those authorities are on the payroll or themselves 
engaged in trafficking. And this is particularly troublesome 
along Honduras and the Guatemalan border where there is really 
very little state presence.
    I wanted to just go ahead and say a couple more things. I 
see two problems in Central America that need to be addressed. 
First of all, success in Central America depends essentially on 
the Central Americans themselves and their capacity and 
willingness to make the tough decisions, and, unfortunately, in 
many cases that has not been done. Oftentimes there is a 
promise of reform, initiatives to reform, there is purging and 
vetting, but the fundamental kinds of reforms that create 
greater transparency and greater accountability, and I think 
you were actually getting at this issue as well, we are 
training people, training people, but we don't have a clear 
sense of what that outcome is, how is that really turning 
things around. I think it is an indicator of how we need to 
adjust our strategy in Central America to make it more 
effective, have better outcomes, not just better inputs.
    I also think that one of the problems is that since we 
focus so much on drugs, we tend to reduce every problem in 
Central America as primarily a drug problem, and I think 
frankly while obviously drugs and drug trafficking are a big 
problem, we need to have a broader approach to the region. 
Let's not just focus on drugs and getting the drug cartels, but 
to also do, as some of you have implied, look at the economic 
situation, look at the health care system, look at the 
education system, because if you don't start from a broader 
perspective and start to reestablish the capacity of the state 
at many levels, I think the likelihood and hope for change in 
that region goes down quite a bit.
    I would focus anything we were to do going forward on 
building or defining basic benchmarks for transparency and 
accountability. Again, simply training people is not going to 
solve their problem. We have been investing in rule of law and 
justice reform in Central America for probably 20 years, at 
least, and we are still with the situation of a justice system 
in Honduras that basically doesn't work.
    We have police forces in Central America and particularly 
in Honduras where last Monday while I was there the Minister of 
Security said that he found over 400 people on the police rolls 
who didn't exist, he called them ghosts, people who were 
collecting salaries and doing no police work. So without 
greater transparency on all of these fronts, I think we can 
continue to train people, we can continue to send equipment, we 
can continue to provide information, but that is the kind of 
fundamental building blocks that we need to start with in the 
region.
    Obviously in 5 minutes I can't cover it at all. I will 
leave it there. I am happy to answer any of your questions and 
I think there is a lot more information in my written 
testimony. Thank you very much.
    Mr. Radel. Mr. Olson, thank you.
    [The prepared statement of Mr. Olson follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Radel. We now go to Mr. Shifter.

  STATEMENT OF MR. MICHAEL SHIFTER, PRESIDENT, INTER-AMERICAN 
                            DIALOGUE

    Mr. Shifter. Thank you very much, Congressman Radel, and 
thank you, Congressman Meeks. It is good to see you.
    The security situation in Central America and the Caribbean 
is very serious. It varies from country to country, it has 
different explanations in each country, but over all the trend 
is worsening and very worrying. Criminal violence poses a great 
challenge to the rule of law and to fragile democracies. The 
situation can and should be addressed by countries in both 
regions and by the regional organizations such as SICA and 
CARICOM. But the United States has enormous responsibility and 
also the capacity to assist.
    The economic and demographic ties to both regions are 
profound and are growing. The U.S.'s own strategic interests 
are at stake. Skepticism about whether the U.S. can help is 
understandable but should be put in perspective. I recall 
testifying before Congress 13 years ago about Plan Colombia and 
everyone asked the question, is there any precedent for the 
U.S. providing sustained support to another country in the 
world that has helped strengthen the capacity of the state and 
led to reduced violence? Back then there were no good answers 
to that question. Today it is possible to cite the example of 
Plan Colombia itself. U.S. cooperation did not solve Colombia's 
problems, but it did contribute to reducing the security 
problem in an important and positive way.
    Two thousand thirteen is not two thousand and there are so 
many differences between Colombia and Central America and the 
Caribbean today. But the core problem of governance and 
lawlessness applies to both situations. Both CARSI and CBSI are 
useful and important steps, but the programs are not enough. 
Despite the cooperation, crime and violence in a number of 
countries are worsening, not improving. In Honduras, murder 
rates increased by some 50 percent between 2008 and 2012, 
precisely the time period in which these programs were 
implemented. And even where violence has dropped, U.S. support 
has been too modest and could be more effectively targeted.
    CARSI and CBSI are comprehensive and wide ranging 
cooperation programs. They combine traditional counternarcotics 
activities with institution building and crime prevention 
measures. There has been a welcome shift in resources toward 
the latter, but the counternarcotics control and law 
enforcement still account for a significant share of the 
assistance.
    Over the long term the best investment, the wisest 
investment, is in institution building. Drug trafficking is a 
key element in spreading violence and weakening institutions. 
It needs to be addressed. But levels of cocaine seizures, the 
main metric used to measure success in U.S. security aid, are 
not directly correlated with homicide rates. Even when the 
share of cocaine trafficked to the Caribbean has been reduced, 
the murder rates have more than doubled over the last decade.
    It is critical that resources be delivered in a timely 
manner and that they be commensurate with the huge challenges. 
According to the GAO, disbursements both in CARSI and CBSI have 
been delayed. It is commendable that in this difficult fiscal 
environment there will be more resources are for CARSI in next 
year's budget. Resources are not everything, but they are 
important, and the U.S. should see this region as a high 
priority and be prepared to even increase funding should 
circumstances warrant.
    The U.S. should not limit its policy to Central America and 
the Caribbean to security cooperation programs. Diplomatic 
instruments and political pressures should also be brought to 
bear to engage other governments in the region to be more 
helpful. The role of Mexico and Colombia, and Colombia was 
referred to in the last panel, are especially critical, but 
other governments as well in the region need to be helpful and 
supportive.
    Central America is also sensitive to U.S. domestic policy 
issues. The U.S. should seriously engage in a review of drug 
policy, should manage deportations to the countries in the 
region with greater sensitivity to how they affect security, 
and it should do more to stop illegal arms from entering the 
region. The U.S. should recognize that there is a great 
opportunity for collaboration in the region. President Obama 
and Vice President Biden's recent visits illustrate the 
goodwill in both Central America and the Caribbean, and 
Colombia shows that sustained U.S. support can make a 
difference.
    Thank you very much for this opportunity. I look forward to 
any questions you might have.
    Mr. Radel. Thank you, Mr. Shifter.
    [The prepared statement of Mr. Shifter follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Radel. I now yield myself 5 minutes to ask some 
questions.
    In committee hearing after committee hearing, Colombia 
always is this bright shining example of what we can do when we 
work together, fostering an economy, work on security, national 
security issues, et cetera, where we go from what was almost a 
failed state to what we now have in Colombia, the GDP booming, 
growing. But, Mr. Shifter, you pointed out how you cannot have 
one-size-fits-all approach when it comes to these types of 
issue and you noted some of the differences between Colombia 
and present day Central America.
    I would ask you, could you expand on that a little more? 
What are the differences and how can we better direct resources 
based on that?
    Mr. Shifter. Well, thank you. I think Colombia has an 
internal armed conflict, is a major difference. The political 
conflict is now a peace process in Colombia. Colombia clearly 
is one country as opposed to small countries, as Ambassador 
Brownfield underscored. It is a major coca producer. Plan 
Colombia was directed at eradicating the coca production in 
southern Colombia. So I think there are enormous differences. 
And this is mainly a problem of trafficking. Really this is the 
transit routes that go through. So I think there are some real, 
real differences.
    But the problem in Colombia, Colombia was called on the 
brink of a failed state and now some of these countries are 
called failed states. So there are similarities in terms of 
basic structures of governance, and questions of 
accountability, transparency, corruption. These issues were 
brought up in the context of Plan Colombia always well.
    So I do think that you tackle a very, very similar kind of 
problem. What I think is needed is a much more engaged approach 
even than we had in Colombia. Colombia is a country with a 
strong democratic tradition, stronger than many of the Central 
American countries. So they were a partner that you can work 
with, and I think in Central America I think really ultimately 
the responsibility is with the Central Americans themselves. 
But I do think beyond just security assistance programs, there 
needs to be a much more engaged and focused and targeted 
approach by the United states.
    Mr. Radel. And that is where we get back to institutional 
support, versus just, gee, how many kilos of cocaine have we 
seized today.
    Mr. Olson, if you would want to expand on that, that is 
kind of what you were getting at as well, right, that 
institutional support, whether we are talking the justice 
system, education, things like that?
    Mr. Olson. I totally agree with what everyone has said, 
that institutional support is essential. What I am trying to 
get at is in some ways we have been trying to do that for a 
long time and not terribly successfully. So what I am 
suggesting is maybe we need to take a little bit different 
approach to it; that the focus not be so much on training, not 
that I am against training, but that not be the main focus of 
what we do and we instead try to start with issues of 
transparency and accountability.
    Let me give you a couple examples. Again, Minister Corrales 
in Honduras discovered that there were 400-plus police officers 
that didn't exist receiving salaries; 162 missing vehicles; 
expensive communication, brand new, never taken out of the 
package. That kind of problem you don't solve by training more 
people because they are coming into a system of corruption, of 
penetration, of capture of the state.
    So what I am trying to say is that maybe the first building 
block here is to push them to have more transparent procedures. 
Nobody in Honduras can tell you how many cases have been 
opened, how many have been investigated, how many have been 
prosecuted and how many have been sentenced, basic information 
so that you could judge whether there is any progress. We keep 
training and training and training, but the system stays 
basically the same.
    And, no, it is not a question of institution strengthening 
or not. It is how you are going to do the institution 
strengthening that makes a difference. And I think that is the 
key to me.
    Mr. Radel. Mr. Olson, I thank you for your time. I am the 
eternal optimist like you. I hope we can have a brighter future 
in this in implementing. Again, I go back to those kind of 
qualitative and quantitative measures to address what you have 
discussed. I think it is important that this committee too 
recognize if there are issues like that, if our funds are being 
directed or mismanaged in any way, tied into some of these 
issues that you have brought up, I hope that we can address 
that.
    At this point I will go ahead, and my time has expired, Mr. 
Meeks, you are recognized.
    Mr. Meeks. Thank you. I was going to call you Mr. Chairman 
but I see the chairman is back, so I don't want him to think 
there is anything funny going on here.
    Mr. Radel. You can still call me Mr. Chair.
    Mr. Meeks. Let me again thank you for your dedication and 
your focus on issues of concern, especially in Latin America 
and Central and South America. I am wondering, going back to 
the conversation that we were just having and oftentimes 
Colombia is a subject matter which we bring up, now, it seems 
to me maybe one of the fundamental differences has been, and 
you tell me, is leadership, from the top going down getting the 
word out that I want transparency. Because if the leadership 
doesn't say I want transparency, then wherever the money goes 
it is going to be gone without having transparency.
    So talk to me about leadership in some of the key areas 
where we are investing money or where we should not invest 
money and how do we do that so we can make sure that there is 
accountability, eventually transparency and get on a pathway, 
as we did in Colombia.
    Mr. Olson. I was going to defer to the chairman over here. 
I mean, I think that is a very valid point and a good point. 
And, again, like Michael said, each country is different. I 
think the Millennium Challenge Account has made transparency in 
governance a central part of its program and there has been 
progress in that in El Salvador, for instance. I think there 
has been progress in Guatemala because Guatemala has had the 
good fortune of having an attorney general who herself is 
courageous and has held people accountable.
    But I frankly am pessimistic about what I have heard and 
seen in Honduras, and part of it is there has been a revolving 
door. They have had three public security ministers in just 
over 3 years, and each one of them comes in with a new agenda 
and a new reform plan and is really going to shake things up. 
And more power to them, but it never takes hold and we never 
quite make it beyond that.
    So that is why looking at sort of the systemic part of 
this, the transparency part is really important. And, you know, 
if there were that kind of leadership committed in the long 
term, then I would say there is even more hope.
    Mr. Meeks. Mr. Shifter?
    Mr. Shifter. Thank you. I think you make a great point, 
Congressman. In Colombia what happened was they basically said 
this country is no longer viable if the situation continues the 
way it has been going, so in that context leadership emerged 
that kind of tapped into something that was out there. And we 
haven't quite seen that yet in Central America.
    Part of the problem is that there is a very difficult 
challenge in coordinating efforts. Each one is a different 
situation. There is some mistrust frankly among the governments 
and you really have to have somebody that really plays--no one 
has really stepped forward yet to really assume that role of 
coordinating the region because everything is on the line. And 
that is really what happened in Colombia. It is easier to do it 
in one country than it is in many, especially when there are 
such different circumstances.
    But I think in terms of U.S. policy there are reformers in 
each of the countries. I think Honduras, as Eric said, is the 
most problematic, the most troubling. If you had to single out 
the most difficult one, I think it would be Honduras. But in 
Guatemala you have an Attorney General and in other countries 
you have people in leadership positions that I think you can be 
supporting, you can work with, and I think effort should just 
be to focus and to strengthen those individuals in leadership 
position, if not the President then at least in the judicial 
branch or Congress or in other institutions that are key.
    Mr. Meeks. Well, let me ask, I have always been curious, 
those individuals that we may have in various institutions in 
various countries that seem to be moving in the right 
direction, where do they come from? How do we find them? Is it 
civil society if it doesn't come from the top? What do we do to 
make sure that there more of them, that we are creating more of 
them, that we are educating or teaching more of them so we will 
have more of them coming from the groundswell up as opposed to 
leaving a vacuum?
    Mr. Olson. I think that is a great point, and that is why I 
say we can't have just such a narrow focus on fighting drugs. 
We have to look more broadly, because we have to identify 
leaders with possibility that can move this forward. And they 
may come from unexpected places.
    Again, trying to be optimistic even about Honduras, the one 
bright light I see in Honduras is actually the university. A 
university that traditionally has been abandoned, underfunded, 
corrupt, you name it, now has a rector who is viewed as an 
honest person, who is doing new and innovative things at the 
university. She has created an observatory on violence that is 
actually creating documentation schemes of who is getting 
murdered where. The government is not doing that. She is doing 
it.
    So there is somebody that is not in government and that is 
on the outside and maybe the periphery, but I think she is 
beginning to create a space in Honduras that is legitimate and 
maybe we can build something there.
    Mr. Meeks. Thank you. I see my time has expired.
    Mr. Radel. Thank you, Mr. Meeks. I now recognize the chair.
    Mr. Salmon. Thank you. Either of you can answer this 
question. Actually, it is a couple of questions. How has DOD 
supplemented the assistance provided through CARSI and what 
have been the principal accomplishments for DOD support for 
Central America thus far; how will the budget cuts affect the 
interdiction and training efforts moving forward; and what are 
the major challenges for interagency cooperation; and how would 
you respond to concerns that U.S. assistance is being provided 
to militaries that still experience widespread impunity for 
human rights violations and criminal activity?
    Thank you.
    Mr. Olson. I am not sure I have an exact answer for you. I 
would like to be able to respond in writing. I mean, I take it 
by DOD you mean their counternarcotics assistance, because 
there is a DOD presence or a State Department presence in 
Honduras at the Soto Cano base, but that is not a 
counternarcotics function.
    SOUTHCOM has numerous programs in the area that are 
counternarcotics-focused. I am beginning to look at this issue 
of border and border security, and I know SOUTHCOM is doing 
quite a bit in Belize, in Guatemala, to try to increase the 
capacity of the militaries in those countries to patrol the 
borders. I don't have numbers around that and I don't know much 
more than that, but I do know they have a presence.
    What the sequester impact will be on all these programs, I 
just couldn't tell you in honesty.
    Mr. Salmon. This is my last question, and either one of 
you, I will be happy to have you answer. How would you respond 
to than concerns that U.S. assistance is being provided to 
militaries that still experience widespread impunity for human 
rights violations and criminal activity?
    Mr. Shifter. Well, I think this is a concern. I mean, 
Central America as you know has a very troubling history and 
one of the achievements in Central America is precisely the 
reduction of the military over the recent period. And the worst 
thing the United States could do would be to strengthening 
those military forces for non-military purposes for what should 
just be law enforcement purposes. But the problem is the police 
are not adequate to the task and there is a lot of public 
pressure for order. And if the military is the only institution 
that can do that, that is a real dilemma, that is a real 
problem. So I think that is a very, very strong concern.
    I guess I would respond with a question that if the United 
States doesn't provide support to those militaries, those 
countries, those militaries are going to do it anyway, and this 
at least gives the United States some leverage and ability to 
try to constrain those abuses. Because these situations are out 
of control, no other institution can provide order, and I don't 
think the U.S. wants to sit by and say well, we are not part of 
this, but look what they are doing down there.
    I think this was the Colombian case. Again if you go back 
to Colombia, human rights has been a central part of that 
program and there has been a reduction in human rights abuses 
in parts thanks to the pressure applied from Washington.
    Mr. Salmon. Thank you. Prisons throughout Central America 
are overcrowded and in substandard conditions. Moreover, they 
have become recruitment centers for criminal gangs, further 
complicating the security situation in the region. What are the 
governments of these countries doing to address these serious 
problems?
    Mr. Olson. I know that in the case of Honduras the U.S. had 
I believe it was about a $10 million program to help reform and 
strengthen the prison system there because not only was it 
grossly overcrowded, but the prisons were actually platforms 
for organized crime and we had these horrific examples of 
prison fires and riots where hundreds of people were being 
killed. So there was a real interest in dealing with this 
problem here. And the U.S. said before we give you this money, 
we have a few conditions: No more cell phones in the prison, 
segregate the prisoners, keep minors out of the adult 
population, some basic, basic criteria.
    And the government was unable to meet those basic criterias 
so the U.S. said we are not giving you $10 million. As much as 
it is needed, as important as it is, if you can't make some 
basic standards, you don't have the will to do some basic 
things, we are not giving you the money. So it is a real 
dilemma because the problem as you say is extreme.
    Now there are better prisons, they have improved prison 
conditions in El Salvador, they have improved prison conditions 
in other countries. But when a country doesn't have the basic 
fundamental commitment to make some minimal changes, one has to 
ask oneself is this the right way to invest our money? I think 
they did but the situation has not improved.
    Mr. Salmon. Thank you very much. I yield back.
    Mr. Radel. Thank you, Mr. Chair.
    Thank you both gentlemen. It has been very productive. I 
think it gives us a little clarity moving forward on the 
realities of this, the cultural realities to this, which is a 
theme that just keeps coming up. You can only do so much. 
People want to have to want to help themselves. And as stewards 
of taxpayer dollars, it is imperative that we look at this very 
critically, especially given our own economy and our own budget 
here in the United States.
    Gentleman, thank you both. There being no further business, 
this subcommittee is adjourned.
    [Whereupon, at 4:30 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


              <F-dash>\<Hoarfrost><careof><natural><box>s 
                      stat<box><acctof><box><Rx>t\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\\<box><box><loz>s stat<box><acctof><box><Rx>t\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
               <Hoarfrost>a<script-l><acctof><pound><Rx>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
